Audit Report, GR-40-02-003


Return
    to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services 
Grants to the Horry County, South Carolina Police Department

GR-40-02-003

November, 2001

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of 
Community Oriented Policing Services (COPS) to the Horry County, South Carolina Police Department (HCPD).  The 
purpose of the grants is to enhance community policing.  The HCPD was awarded a total of $1,448,657 to hire 17 
new police officers and redeploy the equivalent of 4.8 existing full-time police officers through overtime to 
community policing.


We found the HCPD to be in material non-compliance with COPS grant requirements.  We reviewed the HCPDs 
compliance with seven essential grant conditions and except for budgeting for local officers, we found 
weaknesses in each area we tested: hiring of additional officers, local match requirements, reimbursement 
requests, retention of officer positions, redeployment, and community policing enhancement.  As a result 
of the deficiencies identified below, we question $464,867 in grant funds received and recommend an 
additional $424,246 be put to better use.1


The HCPD did not increase its police force by the number of officers funded by the COPS hiring grants.  
In our judgment, the HCPD is in violation of COPS non-supplanting requirement.

The HCDP did not maintain financial records to accurately account for its local match funds.  In 
addition, the HCPD used funds previously budgeted for law enforcement as its local match for the hiring 
grants and the MORE 95 grants.



The HCPD charged unallowable and unsupported costs to the AHEAD ($3,744), UHP Supplemental 1 ($9,388), UHP 
Supplemental 2 ($7,332), and UHP Supplemental 3 ($7,861) grants.



The HCPD has not retained the now expired AHEAD and UHP Supplemental 1 funded positions.  In our judgment, 
the HCPD will not retain the UHP Supplemental 2 funded positions that were scheduled to expire in June 2001 
and the UHP Supplemental 3 funded officer positions that are scheduled to expire in March 2002.



The HCPD charged unallowable and unsupported costs to the MORE 95 grant by: (1) charging regular time to the 
overtime grant ($22,054), (2) including math errors in a reimbursement request ($2,001), (3) overstating a 
reimbursement request ($781), and (4) reducing local spending for overtime ($82,953). 



The HCPD did not enhance commnunity policing by the number of officers funded by the grants.



These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit 
objectives, scope and methodology appear in Appendix I. 



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds 
to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our 
dollar-related findings and for definitions of questioned costs and funds to better use.